No,
In The

Supreme Court of the United States
Ivon Castro,
Petitioner
v.
Dina Simon, Individually and as Deputy
Commissioner, Elizabeth Castro, Correction
Officers’ Benevolent Association, Inc., Steven
Isaccs, Mercedes Maldonado, Koehler & Isaacs LLP,
City of New York,
Respondents.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Second Circuit

PETITION FOR WRIT OF CERTIORARI

Ivon Castro
Petitioner, Pro Se
P.O. Box 1273
Bronx, New York 10471
(646)351-9120

1

QUESTIONS PRESENTED
New York State Courts have consistently
annulled determinations of administrative agencies
that terminated the employment of competitive class
civil service employees from a Civil Service Law
Section 75 disciplinary proceeding, where the
procedures of Civil Service Law Section 75 were not
complied with in the course of that termination from
service.
On March 2, 2015, Ms. Castro was served with
charges and specifications under New York Civil
Service Law Section 75. But no hearing was held to
determine the charges and specifications and no
facts or findings were ever made by a hearing officer
pursuant to that law; nor was any record of a
disciplinary proceeding made; except for the serving
of the charges. Nonetheless, thirty days after being
served with the charges and specifications, and-on
April 2, 2015, Ms. Castro’s employment was
terminated based on the charges and specifications
made against her.
1. The question presented is whether the Second
Circuit’s holding that Ms. Castro’s “termination was
based entirely on allegations of job-related
misconduct,” is consistent with the rule set by the
New York Court of Appeals in Matter of Wiggins v.
Board of Educ.. 60 N.Y.2d 385, 388-89 (1983), and
the due process clause of the Fourteenth Amendment
to the U.S. Constitution?

11

New York Courts have consistently held that a
competitive class civil service employee has lawfully
achieved tenure in their position where that
employee satisfactorily completed the minimum
period of probationary service set forth in a County’s
rules promulgated under Civil Service Law Section
63, and where that employee was not given notice
that the minimum period of probationary service
would continue to the maximum period of
probationary service set forth in the County Rule.
Ms. Castro satisfactorily completed the prescribed
two-month minimum period of probationary service
set forth in the Personnel Rules and Regulations of
the City of New York (55 RCNY, Appendix A;
hereinafter, “PRR”) without notice being given to her
that the minimum period of probationary service
would continue to the maximum period of
probationary service.
2. The question presented is whether the Second
Circuit’s affirmance of the District Court’s holding
that Ms. Castro did not achieve tenure upon her
satisfactory completion of the two-month minimum
period of probationary service, is consistent with the
rule set by the New York Court of Appeals in Matter
of Albano v. Kirbv. 36 N.Y.2d 526 (1975)?
New York Courts have consistently annulled
determinations of administrative agencies where
removal of a competitive class civil service employee
was effected by a person whom did not possess the
power to appoint and remove, and have declared that

Ill

the power to appoint and remove is a nondelegable
statutory power conferred on an appointing
authority.
Ms. Castro’s civil service employment was
terminated by a person whom did not possess the
power under law to appoint and remove and whom
was not the appointing authority: Defendant Dina
Simon.
3. The question presented is whether the manner
by which Ms. Castro’s employment was terminated,
is in violation of the rule set by the New York Court
of Appeals in Matter of Simpson v. Wolanskv. 38
N.Y.2d 391 (1975), its progeny, and the due process
clause of the Fourteenth Amendment to the U.S.
Constitution?

IV

PARTIES TO THE PROCEEDING
All parties to the proceeding below are named in
the caption.

V

TABLE OF APPENDICES
PAGE
Order, United States Court of Appeals for the Second
Circuit, Denying Petition for Rehearing
(Oct. 17, 2019)
la
Summary Order, United States Court of Appeals for
the Second Circuit, affirming the District Court’s
Memorandum and Order (Oct. 1, 2019)
3a
Judgment, Memorandum and Order of the United
States District Court for the Eastern District of New
York granting defendants’ motions to dismiss
Castro’s amended complaint
9a

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Ivon Castro respectfully petitions for a
writ of certiorari to review an order of the United
States Court of Appeals for the Second Circuit.
OPINIONS BELOW
The United States Court of Appeals for the
Second Circuit issued an order denying Castro’s
petition for panel rehearing, Castro v. Simon, No.
19-327-cv (2d Cir. Oct. 17, 2019) (Order). The Order
is reproduced in the Appendix to this Petition (“Pet.
App.”) at la.
The United States Court of Appeals for the
Second Circuit issued a Summary Order on October
1, 2019, affirming the District Court’s denial of
Castro’s amended complaint. Castro v. Simon, No.
19-327-cv (2d Cir. Oct. 1, 2019) (Summary Order). A
copy is reproduced at Pet. App. 3a-8a.
The Judgment (Jan. 22, 2019); Memorandum and
Order of the United States District Court for the
Eastern District of New York granting defendants’
motions to dismiss Castro’s amended complaint,
Castro v. Simon, 17-CV-6083 (AMD) (LB) (E.D.N.Y.
Jan. 7, 2019), is reproduced at Pet. App. 9a-29a.

2
JURISDICTION
This Court has jurisdiction pursuant to 28 U.S.C.
§ 1254(1).
The order of the Court of Appeals was entered on
October 17, 2019.
CONSTITUTIONAL PROVISIONS INVOLVED
U.S. Const, amend. XIV, Section 1
All persons born or naturalized in the
United States, and subject to the
jurisdiction thereof, are citizens of the
United States and of the State wherein
they reside. No State shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of
the United States; nor shall any State
deprive any person of life, liberty, or
property, without due process of law;
nor deny to any person within its
jurisdiction the equal protection of the
laws.
STATEMENT OF THE CASE
This case raises the important question of
whether Ms. Castro’s right to due process of law was
violated where the rule set by the New York Court of

3
Appeals (“A disciplinary proceeding will be voided
and the status quo ante restored when there has
been some era that taints the entire proceeding.”)
Wiggins v. Board of Educ.. 60 N.Y.2d 385, 388-89
(1983), was not followed in her dismissal from service
and where the refusal by the City defendants to
adhere to the State’s Highest Court has impacted the
federal question in Ms. Castro’s case before the
District Court.
And whether the City of New York can ignore the
rule set by the New York Court of Appeals in Matter
of Albano v. Kirbv. 36 N.Y.2d 526, 533 (1975) (“[A]n
appointing authority. ... cannot eliminate the initial
requirement of appointment for a minimum period of
probation, which must be separate and distinct from
a possible further maximum period of probation.”),
where that refusal to adhere to the State’s Highest
Court impacted the federal question in Ms. Castro’s
case before the District Court.
Finally, this cases raises the important question
of whether the City of New York can ignore the rule
set by the New York Court of Appeals in Matter of
Simpson v. Wolanskv. 38 N.Y.2d 391, 394 (1975)
(“Although it was not necessary that the director
personally conduct the hearing, it was essential that
any determination as to misconduct and penalty be
made by the director, as that function may not be
delegated.”); where that refusal to adhere to the
State’s Highest Court impacted the federal question
in Ms. Castro’s case before the District Court.

4
REASONS FOR GRANTING THE WRIT
New York Courts have consistently annulled
administrative agency determinations that
terminated the employment of competitive class civil
service employees from a Civil Service Law Section
75 disciplinary proceeding, where the procedures of
Civil Service Law Section 75 were not complied with
in the course of that termination from service. See
e.g., Matter of Arthur v. Soares. 95 A.D.3d 1619,
1621 (2012); Matter of Gardner v. Coxsackie-Athens
Cent. School Dist. Bd. of Educ.. 92 A.D.3d at 1095
(2012); Matter of Blount v. Forbes. 250 App. Div. 15,
18 (1937); Matter of Perez v. New York State Dept, of
Labor. 244 A.D.2d at 844-845 (1997).
On March 2, 2015, the New York City
Department of Correction (“DOC”) took disciplinary
action against Ms. Castro and served her with
charges and specifications of misconduct under New
York Civil Service Law Section 75. But no hearing
under Civil Service Law Section 75 was held to
determine the charges and specifications brought
against her, and no facts or findings were ever made
by a hearing officer pursuant to that law. Nor was
any record of a disciplinary proceeding established;
except for the serving of the charges. Nonetheless,
thirty days after being served with the charges and
specifications, and on April 2, 2015, Ms. Castro's
employment was terminated based on the charges
and specifications made against her.

5
The DOC initiated the disciplinary action under
Civil Service Law Section 75 subdivision 2; but then
defendant Simon imposed the penalty under Section
75 subdivision 3 “dismissal from service,” without
complying with the provisions for the conduct of a
hearing; or of Ms. Castro’s right to confront
witnesses and see documents used against her (subd.
2); amongst other provisions in that law not adhered
to in Ms. Castro’s unlawful removal.
The writ should also be granted, Ms. Castro
respectfully submits, because the District Court
simply misapplied 55 RCNY Appendix A, Rule
5.2.7(c) and the rule set by the Court of Appeals in
Albano.
The Albano Court said, “We are confronted with a
question of interpretation ...” (Id. at 530); and went
on to interpret the county’s rule which provided for a
minimum period of probationary service and a
maximum period of probationary service. And held
that the appointing authority “cannot eliminate the
initial requirement of appointment for a minimum
period of probation, which must be separate and
distinct from a possible further maximum period of
probation.”
The District Court, citing Rule 5.2.7(c), reasoned
that it “specifically allows the City defendants to
extend the probationary term beyond the two-month
minimum, which they did in this
case.” (Memorandum and Order (“M/O”), at 10).

6
But that interpretation conflicts squarely with
Albano and the prohibitions stated in that case.
Additionally, the District Court did not review the
whole “Probationary Term” rule under 55 RCNY
Appendix A (5.2.1 et seq.) in reaching its decision.
The District Court also erroneously reasoned,
citing Matter of Cancel v. N.Y.C. Human Res.
Admin./Dep’t of Soc. Servs., No. ll-CV-9725, 2015
WL 505404, *2 (S.D.N.Y. Feb. 6, 2015); (M/O, at 10),
that Albano “does not help plaintiff, because it
involved a Suffolk County regulation providing that
appointments became permanent at the end of a
minimum probationary term ... .”
The District Court’s reasoning is incorrect
because several cases since Albano, and from other
county jurisdictions than Suffolk County, have
obeyed the rule set forth in Albano. See for example,
Matter of Jones v. Des Moines Civil Service Com’n.
430 NW2d 106 (Iowa Sup. Ct. 1988); Matter of Clark
v. Comr. of Soc. Serv.. 53 A.D.2d 122 (3rd Dep’t
1976); Matter of Ignacio v. Westchester County
Health Care Corn.. 2010 NY Slip Op 51240(U).
The Second Circuit’s ruling erroneously adopted
the District Court’s interpretation of Rule 5.2.7(c)
and the application of Albano.
Finally, the writ should be granted because New
York Courts have consistently annulled
administrative agency determinations where
removal of a competitive class civil service employee
was effected by a person whom did not possess the

7
power to appoint and remove, and have declared that
the power to appoint and remove was a nondelegable
statutory power conferred on an appointing
authority.
Ms. Castro's employment was terminated by
defendant Dina Simon; whom was not a person
having the power to appoint and remove subordinate
employees in the DOC.
Ms. Castro contends that it would set a dangerous
precedent and effectively eviscerate years of case law
if the District Court’s memorandum and order are
allowed to stand in light of the foregoing facts and
circumstances.
CONCLUSION
For the reasons stated above, Petitioner
respectfully requests that this Court grant her
petition for a writ of certiorari to review the decision
of the Court of Appeals for the Second Circuit.
Respectfully submitted,
Ivon Castro
Petitioner, Pro Se
P.O. Box 1273
Bronx, New York 10471
(646)351-9120

